CERTIFICATE OF SERVICE
I, Danielle Banks, hereby certify pursuant to
Rule 29.5(c) that on September 22, 2020, I served one
(1) copy of the foregoing Reply Brief of Petitioner
Bishop Kenneth Shelton in support of the Petition for
a Writ of Certiorari on the following:
Anthonee Patterson
1544 W.25th Street
Jacksonville, FL 32209
The following email addresses have also been served
electronically:
dbanks@stradley.com
mchopko@stradley.com
abrown@stradley.com
briley@stradley.com

/s/ Danielle Banks
Danielle Banks
Counsel for Respondent
Kenneth Shelton
Dated: September 23, 2020

